<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2004

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman


 HAROLD ROGERS, Kentucky                JOSE E. SERRANO, New York
 JIM KOLBE, Arizona                     ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina      ROBERT E. ``BUD'' CRAMER, Jr., 
 RALPH REGULA, Ohio                     Alabama
 DAVID VITTER, Louisiana                PATRICK J. KENNEDY, Rhode Island
 JOHN E. SWEENEY, New York              MARTIN OLAV SABO, Minnesota      
 MARK STEVEN KIRK, Illinois         
                                                                        
                                                                        
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Mike Ringler, Christine Kojac, Leslie Albright, and John F. Martens
                           Subcommittee Staff
                                ________
                                PART 9

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                                   

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 89-519                     WASHINGTON : 2003

                                                                      

                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                      DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                 JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky                 NORMAN D. DICKS, Washington
 FRANK R. WOLF, Virginia                 MARTIN OLAV SABO, Minnesota
 JIM KOLBE, Arizona                      STENY H. HOYER, Maryland
 JAMES T. WALSH, New York                ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina       MARCY KAPTUR, Ohio
 DAVID L. HOBSON, Ohio                   PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma         NITA M. LOWEY, New York
 HENRY BONILLA, Texas                    JOSE E. SERRANO, New York
 JOE KNOLLENBERG, Michigan               ROSA L. DeLAURO, Connecticut
 JACK KINGSTON, Georgia                  JAMES P. MORAN, Virginia
 RODNEY P. FRELINGHUYSEN, New Jersey     JOHN W. OLVER, Massachusetts
 ROGER F. WICKER, Mississippi            ED PASTOR, Arizona
 GEORGE R. NETHERCUTT, Jr.,              DAVID E. PRICE, North Carolina
Washington                               CHET EDWARDS, Texas
 RANDY ``DUKE'' CUNNINGHAM,              ROBERT E. ``BUD'' CRAMER, Jr., 
California                               Alabama
 TODD TIAHRT, Kansas                     PATRICK J. KENNEDY, Rhode Island
 ZACH WAMP, Tennessee                    JAMES E. CLYBURN, South Carolina
 TOM LATHAM, Iowa                        MAURICE D. HINCHEY, New York
 ANNE M. NORTHUP, Kentucky               LUCILLE ROYBAL-ALLARD, California
 ROBERT B. ADERHOLT, Alabama             SAM FARR, California
 JO ANN EMERSON, Missouri                JESSE L. JACKSON, Jr., Illinois
 KAY GRANGER, Texas                      CAROLYN C. KILPATRICK, Michigan
 JOHN E. PETERSON, Pennsylvania          ALLEN BOYD, Florida
 VIRGIL H. GOODE, Jr., Virginia          CHAKA FATTAH, Pennsylvania
 JOHN T. DOOLITTLE, California           STEVEN R. ROTHMAN, New Jersey
 RAY LaHOOD, Illinois                    SANFORD D. BISHOP, Jr., Georgia
 JOHN E. SWEENEY, New York               MARION BERRY, Arkansas          
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
 DAVE WELDON, Florida
 MICHAEL K. SIMPSON, Idaho
 JOHN ABNEY CULBERSON, Texas
 MARK STEVEN KIRK, Illinois
 ANDER CRENSHAW, Florida                                                                                                                                                                                                                                                                        
                                                                        
                                                                        
                                                                        
                                                                        
                                                                        
                                                                        
                                                                                                                                                                                                                                                      
                                                                        
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)


DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2004


TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS


                                          Thursday, April 10, 2003.

                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Wolf [presiding]. The committee will come to order. We 
welcome Mr. Bereuter first. Welcome, Doug. Your full statement 
will appear in the record.
    Mr. Bereuter. Mr. Chairman, Congressman Serrano, members of 
the subcommittee and staff, we thank you for the opportunity to 
testify on a number of projects. They are all statewide 
projects. They are, in fact, all drug-related.
    Congressman Osborne, who will come shortly for this, will 
also be testifying for one of the three that is listed here 
plus another drug-related program.
    We have absolutely a huge methamphetamine problem in the 
state. It is a plague. I think, proportionately, Iowa and 
Nebraska may have the largest problem with this in the country. 
And we are not making progress; we are losing the battle. And 
it is affecting every community, practically, in the state. It 
is as big a problem in rural areas as it is in urban. It is 
concentrated in people in their twenties.
    Mr. Wolf. That is incredible.
    Mr. Bereuter. It is. It is a terrible plague, and it is 
leading, of course, to a lot of related crime. And this is a 
really insidious drug, because it is so incredibly addictive. 
And you see what is happened to a person in two years' time--
the chances are they are going to die from this. There is very 
little opportunity to move away from it without extraordinary 
intervention.
    It is now a problem mostly concentrated in people in their 
twenties. We are concerned about it moving downward, of course, 
and there is some evidence that is happening.
    So, the request I have related to the Clandestine Lab 
Cleanup Program, to give you some idea, we have found just in 
2002, 372 labs. That placed a huge burden on Nebraska law 
enforcement, so I am requesting these funds.
    Congressman Osborne is making the same request, I think, in 
this area, to invest in a lab cleanup program. He will speak, 
perhaps, more to it.
    But additionally, you notice some other items in this. 
$45,000 to fund three dump sites for storage of hazardous 
materials found in clandestine labs. This is, additionally, a 
major fire problem, because we have had many explosions that 
take place and fires in houses and other kinds of buildings.
    The third component is a $197,400 for a forward-looking 
infrared (FLIR) device that could be mounted on aircraft to 
help detect these labs. Currently, there is one FLIR in 
Nebraska used throughout the state. An additional FLIR would be 
located in western Nebraska for better availability.
    There is a request for the state crime lab, which is fairly 
self-explanatory, I think. Seventy-five to 80 percent of the 
analyses conducted are at the request of the state's law 
enforcement agencies. And a very large part of this is also 
drug-related.
    A drug treatment prevention program--for an 18-month drug 
treatment program to be implemented through a drug court 
system. Research shows that the methamphetamine users need this 
length of treatment to be successful in recovery, if they can 
at all. Of course, that is a critically important component of 
the fight against methamphetamine abuse.
    I will be happy to answer any question you might have about 
this. I thank you for your assistance last year on this 
problem. It is important. It is being used well. It is being 
used very effectively and efficiently by the law enforcement 
and drug-related programs in the state.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Wolf. Thank you, Doug. We will try to help all of the 
states to the extent that we can do so with such tight 
allocations. I think you have made a good case for taking 
further action on this issue.
    I would hope the Administration will focus with laser beam 
precision on illicit drug use and other domestic issues in the 
aftermath of the war in Iraq.
    Because time after time, throughout these FY 2004 
appropriations hearings, we have seen how drugs, including 
methamphetamine, OxyContin, Ecstasy and others, affect inner-
cities, suburbs, and rural areas alike. Methamphetamine labs 
have sprung up in my district, even the western part, in the 
Shenandoah Valley, known for its beauty, bears the scars of 
this scourge.
    And so, if we can help, we will certainly try to----
    Mr. Bereuter. Thank you. I know that, Mr Chairman.
    I heard this morning, for example, about the Oxy problem 
down in southwest Virginia, which is apparently extreme.
    Mr. Wolf. It is--because this drug may be prescribed by 
doctors--people think they are taking a legal drug. They are 
crushing it--we had a competent attorney in Prince William 
County go to jail from use of it. Six, seven, eight pharmacies 
in my district have now been robbed.
    But it is all part of the whole culture. And, so, Doug, we 
will try to help to the extent that we can.
    Mr. Bereuter. Thank you.
    Mr. Wolf. Any further questions, Mr. Serrano?
    Mr. Serrano. I agree with the chairman. You know, for many 
years the drug issue has been an inner-city issue--at least it 
was seen that way. But now we are realizing that it is spread 
out throughout our society.
    And I can tell you, as one who represents the South Bronx, 
that if we do not catch it early, it will rape your communities 
the way it has raped mine. It is the number one reason for all 
the problems that we have in our neighborhoods. You take drugs 
out of neighborhoods, you would probably take 80 percent of the 
crime out of the neighborhoods in the Bronx.
    Mr. Bereuter. Those statistics would match my district. 
Eighty percent of the crime related to methamphetamine right 
now in Fremont, Nebraska.
    Mr. Serrano. Yes. Same thing. I understand. And I will be 
supportive.
    Mr. Bereuter. Thank you.
    Mr. Wolf. Your full statement will appear in the record.
                              ----------                              

                                          Thursday, April 10, 2003.

                                WITNESS

HON. TOM OSBORNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Osborne. Okay. In other words, you are saying be brief.
    Mr. Wolf. No, I mean----
    [Laughter.]
    Mr. Osborne. Well, thank you for--as Congressman Bereuter 
mentioned, we appreciate your help last year. You did steer us

toward some money to help combat meth and we really appreciate 
that.
    Really want to talk about three issues here today. One is 
the Boys' and Girls' Home in Southern Nebraska spread across 
the state. And I think traditionally rural areas have the image 
of being very family friendly and very sound as far as young 
people.
    But we have found in recent years that with the rural 
economy, both parents are working. We probably have more 
latchkey kids in the country than you do in some of the cities. 
So we are having more problems than we have ever had before.
    So we are asking for $550,000 for 2004 to provide full 
funding for the Boys' and Girls' Homes of Nebraska to prevent 
juvenile justice and delinquency-related programs. And what 
these would do is they would provide short-term shelters, group 
homes.
    Secondly, they would provide non-criminal juvenile 
offenders who have not been convicted of serious crimes--and 
those kinds of things. And then a diversion program to help 
people do community service and make restitution and those 
kinds of things. We think this is a very worthwhile project.
    Secondly, we would like to request $3 million for a public 
safety telecommunications education for emergency response 
managers. At the University of Nebraska at Kearney there is an 
undergraduate program, it is the only one in the state, which 
provides education for undergraduates in the area of 
telecommunications and first responders.
    And we feel that is very important throughout the state of 
Nebraska at the present time. And we feel that since this is 
the only university in the state--the only educational 
institution that this is going to be important.
    Then lastly, I would like to second what Congressman 
Bereuter has said about the meth problem. He has mentioned a 
great many of the issues I was going to advance in this 
discussion. He mentioned that there were 372 planned--or 
clandestine lab operations that were discovered in 2002. And 
the interesting thing that in 1999 there were 37. So it is a 
ten-fold increase in a period of three or four years. So it is 
an exploding problem.
    And the reason that it is become so prevalent in rural 
America is that you can have a meth lab out in the country that 
goes relatively undetected. In the city, you know, there is 
some odor involved or there is a lot of materialsthat are 
involved. And if you are in an urban area, it is kind of difficult to 
get things done.
    So anyway, he mentioned that we wanted $350,000 to clean up 
some of these operations. And the reason that is so important 
is that these hazardous materials oft-times require somebody to 
come in from Kansas City.
    In other words, they get a meth lab and they have to have a 
special team come in all the way from Kansas City to dismantle 
it. And then we have to dispose of the hazardous materials and 
that is going to about $45,000, because those materials are 
clearly hazardous that they use.
    And drug treatment and prevention, $150,000. The average 
meth addict needs 18 months of inpatient treatment to have a 
chance. Now most drug rehab programs are, you know, maybe two 
months. But meth apparently is so addictive and so powerful 
that it is very difficult to get people to recover. As Doug 
mentioned, it is often fatal.
    And some of the law enforcement people out in Nebraska told 
me that the average meth addict will commit roughly 130 crimes 
per year per addict. So you can imagine the extent of the 
social dysfunction that this causes.
    Anyway, those are our requests. And we appreciate your 
listening to them.
    [The information follows:]

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Wolf. Thank you very much.
    Before I recognize Mr. Serrano, we will try to help, number 
one. Number two, on the emergency response request, since the 
new Homeland Security Appropriations Committee has been set up 
under Mr. Rogers, I would urge you to maybe also make that 
request to Mr. Rogers.
    As a coach, as someone who works with young people. Why do 
you suppose this is taking place?
    Mr. Osborne. Well, I think what I saw over 36 years was a 
lot of family dysfunction. In 1962, when I started, you seldom 
ran across somebody from a one parent family. If so, it was 
usually because there was one parent and the other one was 
deceased. And by the time I finished in 1997, roughly 50 
percent our young people were growing up without both 
biological parents. So that is a huge factor.
    And then of course, the environment has changed. You know, 
there is a shift toward violence. The drug culture was 
relatively unknown in 1962. Today it is out there with gangs 
and weapons. So I think, Frank, it is basically just lack of a 
caring adult in a child's life. And a lot of lack of 
affirmation. There is nobody saying, you know, ``I believe in 
you. I really think you can do something.''
    That is why I devoted so much of my time to mentoring 
programs. And I am glad to see the president has kind of gotten 
behind that, because it is the one thing that statistically we 
know will actually serve in a preventative way. Drug abuse goes 
down about 50 percent in a good mentoring program and alcohol 
abuse and violence and all of those things.
    But it is mainly, I think, family-related and somewhat 
culturally-related. And the messages our media are putting out 
there, you know, I am really dismayed by the amount of 
pornography, the content of video games and some of the things 
that you are concerned about.
    Mr. Wolf. We had a hearing yesterday with the FTC and we 
showed a video, ``Grand Theft Auto 2'', I think it was. You 
would not believe it. You would--unless you see it, you would 
not believe it. We should not wonder why the sniper terrorized 
my area. We should not wonder. This game is--I had never heard 
of it. My kids are past that point. And it is unbelievable.
    I mean, if the Congress could just take 10 minutes out and 
watch this game. And yet, you know, the lobbyists for the group 
said, well, you know, they pretty much can do what they want to 
do because nobody on Capitol Hill can touch them.
    And these sniper crosshairs, shooting in the head, more 
points if you hit the head. And if you get so many points, like 
the old pinball game, you then get--you see thispornographic--I 
mean, it is crazy. I cannot believe it and it is going to be a $20 
billion industry.
    I hope the administration, when this war in Iraq is over, 
can focus on some of these issues that I think are just--and I 
think there are some of the cultural issues that there is no 
divide between the two parties. I think the parties both want 
to see the support of families and all these things together. 
It ought to be a healing issue, whereby there is a tremendous 
opportunity for bipartisanship.
    But in closing, before Mr. Serrano, we will try to help on 
these issues. And I would ask you to talk to Mr. Rogers on that 
one. But on the others, we will try to help.
    Mr. Serrano.
    Mr. Osborne. If--one more comment--and that is, you know, I 
am concerned about terrorism and international events. But I 
really perceive the greatest threat to our country is the 
dissolution of the culture. You know, long-term, long-haul, I 
see more threat here than I do from external forces.
    And I observe that, I think, with what I saw with young 
people who were--period of time. So I share a lot of your 
concerns.
    Mr. Serrano. Thank you for your testimony. And I will join 
the chairman in being supportive. In the 1980s I used to end 
all my public statements by saying that communism is not going 
to defeat us, it is the drugs in our cities and the falling 
apart of the American family that will defeat us from within.
    Now, the drugs in the cities have spread out everywhere in 
the society. Just an aside, the chairman is intent, and I 
support him, on trying to find out what effect video games have 
on the violent aspect of our society. But I also want to go a 
step farther at the expense of sounding sarcastic.
    I would like to know what three weeks of CNN coverage of a 
war does to young people who feel adults settle issues by 
beating up on each other quickly.
    And in your line of work, which we respect so much, I have 
never understood why if two people beat each other up on the 
street corner they get arrested, and two hockey players can do 
it on worldwide TV and it is totally acceptable.
    I know that is a touchy subject for many people, but I 
think we need to look at the whole picture. But thank you for 
bringing this to our attention again, and I will be as 
supportive as I can be.
    Mr. Wolf. Congressman Schiff, welcome to this committee. 
Your full statement will appear in the record.
                              ----------                              --
--------

                                          Thursday, April 10, 2003.

                                WITNESS

HON. ADAM SCHIFF, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Schiff. Thank you very much, Mr. Chairman and ranking 
member. Appreciate the opportunity to testify to you, before 
you today. Just a couple of items that I wanted to go over in 
particular, and the first is the Law Enforcement Memorial Act, 
and I want to thank you for your support of this last year.
    This was a bill that I introduced with Tom Davis to make 
funds available to different police and fire departments that 
wanted to create lasting memorials or tributes to people who 
had died in the line of duty.
    In the city of Glendale, which was the origin of this bill, 
they have lost four police officers during the course of their, 
the department's history, and like many communities that want 
to erect a memorial in honor of those that they lost, but 
cannot divert the resources from additional cops on the beat or 
equipment, and have taken up a collection to raise funds for 
this.
    The bill that we passed as part of the Justice Department 
authorization authorizes the establishment of a fund to provide 
a 50-percent federal match for local and state funds.
    And you were kind enough to begin funding that program last 
year with an initial appropriation of $500,000, and I would ask 
this year that we work on providing the full amount of funding, 
which would be $3 million.
    That would be enough to fund 20 memorials around the 
country, to provide $150,000 match for local contributions of 
the same amount. And since we introduced the legislation we 
have heard from many departments around the country--very 
pleased that this initiative has gone forward.
    We have heard from the spouses, the widows of lost officers 
who now have hope that their communities can erect something to 
recognize the sacrifice that their spouses have made.
    The second program I wanted to highlight today is the COPS 
Program. Last year, I came before the committee to ask for your 
support to keep this program funded, and thanks to the efforts 
of this subcommittee and the efforts in the Senate, as well, 
the COPS Program was funded at $928 million for fiscal year 
2003.
    It has been a very successful program in Los Angeles and 
many other parts of the country, and I understand that the 
administration budget calls for significantly less funding, I 
think $163 million to be allocated to COPS, as well as a 
significant realignment of resources.
    And I would again like to urge the subcommittee to remain 
committed and support the COPS Program. I also want to talk 
briefly today about the Interagency Communications 
Interoperability System, ICIS.
    Since September 11th there has been a consistent call 
around the country for our first responders to 
haveinteroperable communications equipment so that they can talk with 
each other.
    In many areas of the country that are like Los Angeles, you 
have police departments and other first responders, fire 
departments, that are side-by-side representing different 
communities, protecting different communities, but not able to 
adequately talk with each other in the event of an emergency.
    The communications systems of most of the cities in L.A. 
County function as islands, one unit from one city responds, 
leaves its home jurisdiction, radio contact with that unit 
diminishes rapidly.
    The intent of the ICIS system is to provide public safety 
agencies, primarily those in the greater L.A. Metropolitan 
Area, with the means for wide-area communications 
interoperability.
    And this is essential for the safety of the public safety 
personnel, operating outside of their home cities, and is 
imperative when it is employed in a large-scale incident 
involving multiple jurisdictions.
    Currently the cities of Burbank, Culver City, El Segundo, 
Glendale, Montevella, Pasadena, Pomona and Torrence, which are 
scattered all around L.A. County, have formed this ICIS Joint-
Powers Authority to oversee implementation of the project.
    Other cities are waiting to join this JPA, but this will 
really be a model for the entire state of California and beyond 
in how communities can band together, can develop this 
interoperable technology, and can in a much more effective way 
communicate with each other in the event of both the kind of 
emergencies that we have regrettably every day, but more 
significantly after September 11th in the event of a major 
incident.
    Finally, I requested $4 million for that joint effort for 
the city of Glendale. Finally, I wanted to emphasize a project 
in the city of Burbank. It is a middle school violence 
prevention project that works to provide and encourage and 
support activities that contribute to the prevention of 
violence and the promotion of a productive and positive 
experience for middle school students, a key age and 
demographic in terms of stemming the flow of young people into 
non-productive activities.
    And if I could just add on to something that Coach Ourne 
ourne said in his testimony, when I was in the State Senate I 
chaired the Judiciary Committee, and I think in the four years 
that I was there the most salient testimony we heard was from a 
gentleman named Father Greg Boyle, who works in East Los 
Angeles with at-risk youth.
    And he was asked during our hearing if there was anything 
he could point to as a common denominator for youth that had 
pulled themselves out of very difficult circumstance and turned 
their lives around.
    And he said there were two things that he could identify: 
They had a mentor, they had someone who cared whether they 
succeeded or failed--and it might have been a grandparent or a 
social worker or a police officer or a teacher--someone cared 
if the youth succeeded, and they were able to get a job.
    And I have never forgotten those words. I think those are 
two of the twin pillars of helping at-risk youth. And I think 
this effort very much complements that philosophy and I want to 
just add my voice to that of Tom Osborne, as well.
    And I appreciate it.
    [The information follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Wolf. I thank you very much. We will do the best we can 
on the budget allocation, which are again going to be very 
difficult this year, perhaps more so this year than even last 
year, if that is possible.
    But thank you for taking the time to testify this morning. 
And I will recognize Mr. Serrano.
    Mr. Serrano. I commend you for your work with the 
Memorials. I think that is something that we identify with you 
and something that really speaks to your desire to have people 
recognized for their service in this country.
    So, again, I would join the chairman in doing the best that 
we can. But I wanted to single out my respect for you on this 
particular issue.
    Mr. Schiff. Thank you very much. It would not have happened 
without your help.
    Thank you.
    Mr. Wolf. Thank you very much.
    Mr. Crowley is not here, so maybe so can have Mr. Rothman 
and Mr. McNulty so he can--you can both come up together so you 
do not have to hang around all day. And----
    Mr. Serrano. It is a tough team.
    Mr. Wolf. If you can your full statement will be in the 
record. We are sort of asking people to kind of keep it within 
that five minute range.
                              ----------                              

                                          Thursday, April 10, 2003.

                                WITNESS

HON. STEVEN ROTHMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Rothman. Yes, sir, and hope to do it in less time than 
that. Mr. Chairman, Mr. Ranking Member, it is always a 
privilege. I want to say, good morning and tell you I am here 
to talk about two items.
    First, congratulations to us all--mostly to you--Garden 
State of New Jersey--most densely crowded state in the United 
States, as you know. This is my district right here. And as 
those people with foresight at the Tinicum National Wildlife 
Refuge in Pennsylvania--no, Islands of the Marsh----
    Mr. Wolf. That is my old neighborhood.
    Mr. Rothman [continuing]. That is right--that we can 
reclaim land fills and polluted poisoned lands in areas that 
were written off, and especially in the most densely crowded 
spot in the most densely crowed state in the country, we can 
make an 8,400 acre environmental park.
    We already--we own all but 3,300 acres of the 8,400 acres. 
Thanks to you, we are going to own the rest of it in the next 
two or three years.
    The state rezoned the 8,400 acres. It is a half-a-mile from 
Giant Stadium. You can imagine the development interest in that 
spot. The state just agreed with me and based on your giving me 
the imprimatur of the Congress and rezoned it all 
undevelopable, 8,400 acres. And the money you gave me in the 
last two years will allow us with the money that the state is 
putting up in the next two to three years to own all 8,400 
acres.
    We need another last installment for the purchase, which is 
why I am coming to you for 5 million bucks. The state will 
match the 5, and then we will own the rest of the 8,400 acres.
    We own all but 3,300 acres. We are going to buy another 
1,000 this year, that leaves 2,300 acres. And within two to 
three years we will own it all. And then of course we will come 
back for a couple of dollars for remediation. But we have 
already identified port authority, New Jersey state green 
acres, tipping fees from the--and the rest for that money which 
will more than match the federal share.
    And here are the--already the properties identified that we 
are going to use by the state commission to buy up in this 
area. You have the green map. And this is what we did years ago 
when we came before you. Now the state of New Jersey has 
enacted this into law by redrafting the master plan to make 
this undevelopable and as subject.
    So that is number one.
    Thank you. We are making progress. No one would ever have 
believed we would have gotten this far. And we are on the 
threshold. Think if it, this ill be no only my greatest legacy, 
but I hope and believe one of the committee's greatest 
legacies.
    Ten times the size of Central Park in the most densely 
crowded spot in the most densely crowded state--former 
landfills, polluted areas and we are going to make it an 
environmental preserve--canoeing, fishing, nature trails, the 
whole bit. And we are almost--and we are just about there in 
terms of acquiring the rest of the land.
    And that is number one.
    Number two, thanks to your effort, we got off the ground 
the Secure Our Schools Act. We got it passed on the Judiciary 
Committee when I was on there. And then you funded it--$5 
million each for last year. This is the matching program where 
people who feel their school kids are in danger and they want 
to match for walk-through medal detectors, hand-held metal 
detectors, a new security program for their schools.
    The Department of Justice--and it has been great--it is 100 
percent subscribed to. The problem is the Department of Justice 
says that of the 56,000--excuse me--88,000 public schools in 
the United States, who if they would want to avail themselves 
of it, this 5 million bucks only goes--can cover 2 percent.
    Again, it is not a government mandate. School boards have 
to say we will put up our half if the government puts up its 
half to ensure the safety of our kids.
    So I am asking for a modest $30 million for that program--
--
    [Laughter.]
    Mr. Rothman [continuing]. And I know you will do the best 
you can under difficult circumstances.
    The point is these two programs, which you have helped give 
birth to, are magnificent accomplishments. And they are going 
to be something that we are all going to be incredibly proud 
of.
    Thank you, Mr. Chairman and Mr. Ranking Member.
    [The information follows:]

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Wolf. Thank you very much.
    Mr. Serrano. Were you ever a used car salesman? [Laughter.]
    Mr. Wolf. I have no questions. Thank you for your 
testimony.
    Mr. Serrano.
    Mr. Serrano. None. I just want to commend you again on your 
commitment to this. And how far is the Bronx from that park?
    Mr. Rothman. Very close. [Laughter.]
    Actually, you can see the Empire State Building. Mr. 
Chairman, you can see--you can stand on a boat----
    Mr. Serrano. No, I know you worked hard on that project for 
a long time.
    Mr. Rothman. Thank you, thank you. It is incredible. And I 
look forward to taking you guys on a boat tour. And you will 
not believe the 65 species of birds there and wildlife that are 
returning now that we closed the landfills and are cleaning up 
the toxic waste and sites.
    It is unbelievable. And we are bringing schools kids 
there--kayakers and boaters and birder watchers. And we brought 
the head of Fish and Wildlife Service--the National Fish and 
Wildlife Service. He took a kayak tour with me down the 
Hackensack River through the heart of it and he--it blew his 
mind.
    He said, ``You have to normally leave a boat two hours 
outside of a urban area to see this kind of diversity of 
wildlife and plant life. And here it is. There is the Empire 
State Building two miles away.''
    But the people of the region desperately need this refuge. 
It is so crowded there. There is no other refuge. That is why 
we had to make it out of the landfills in this region. And it 
is now zoned undevelopable. We are almost there to purchase the 
whole, whole enchilada.
    Mr. Wolf. Thank you.
    Mr. Serrano.
    Mr. Serrano, do you have anything?
    Mr. Serrano. Well, you lost me on the enchilada thing. 
[Laughter.]
    Mr. Wolf. Mr.--we have no further questions. Thank you.
    Mr. Rothman. Thank you.
    Mr. Wolf. Mr. McNulty.
                              ----------                              

                                          Thursday, April 10, 2003.

                                WITNESS

HON. MICHAEL McNULTY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. McNulty. Thank you, Mr. Chairman and Ranking Member 
Serrano.
    I just have one request that is worth $3 million in the 
Byrne discretionary grant account for Excelsior College in 
Albany, New York. It is a continuous criminal justice distance 
learning program.
    This program benefits law enforcement officers all across 
the nation. And I emphasize, although its headquartered in my 
district, it serves communities all across the nation, and a 
number of them--actually have students in a number of foreign 
countries in other programs. But this is domestic. Just 
parenthetically, it also--again, not having to do with this 
request, Excelsior College is the largest nursing program in 
the world.
    It is the oldest distance learning college. It has awarded 
fully accredited degrees to more than 100,000 students over 30 
years in existence.
    It is unique in many ways. Primarily it serves working 
adults including many members of the United States armed 
forces. Excelsior is an exclusive distance learning 
institution. There is no campus. It is--you might say the jet 
age of distance learning, mostly computer and other experience.
    Third, Excelsior offers working adults the opportunity to 
earn college credit for professional training experience. 
Proven to offer educational outcomes equal to outcomes expected 
in the college classroom.
    The Criminal Justice Distance Learning Program requires 
Excelsior College faculty to visit interested training 
academies and evaluate the curriculum and courses offered by 
those academies. Where college level learning is demonstrated, 
Excelsior College awards college credit similar to the advanced 
placement test that many high school seniors take for college 
credit.
    Many military and computer science training programs have 
already been evaluated and approved by the American Council on 
Education as containing the same curriculum as outcomes in 
traditional college courses. This program is critical to law 
enforcement officers as it offers them flexible approaches to 
earning college credit, a tool increasingly in demand within 
the law enforcement community.
    And I want to thank you because this project was first 
funded in the fiscal 2002 Commerce, Justice and State 
appropriations bill. And I thank you for doing that which you 
did to the tune of $1 million.
    I am very pleased to report that the demand for this 
service is far greater than anyone expected. As of February of 
this year, the college had received requests from 23 academies 
all across the country for evaluations. They already did 15 
site visits. They have completed six of thoseand have fully 
completed the assessment for the Texas Department of Public Safety, the 
largest state police academy in the country.
    In addition to these evaluations, Excelsior has assembled 
regional teams of expert evaluators for academia and law 
enforcement to verify that the content in training academies 
meets the collegiate learning outcome requirements.
    In the process, many academies have told Excelsior that 
they have long wanted to evaluate their programs for college 
level equivalency, but the cost has prevented them from doing 
so. A $3 million appropriation for fiscal 2004 will enable 
Excelsior College to continue this highly successful program, 
allowing it to evaluate an additional 100 training academies 
across the United States of America.
    Mr. Chairman and Ranking Member Serrano, I would like to 
also be able to submit for the record three letters of praise 
and support for this program from the State of Nevada 
Commission on Peace Officer Standards and Training, the 
Michigan State Police and the city of Colorado Springs, 
Colorado.
    And finally, I recognize the tremendous strain that you are 
under as far as decisions of this committee are concerned. I 
know that you will receive a lot of worthy testimony today on 
very worthwhile projects.
    And they will outnumber and outstrip the amount of 
resources available. So my request is for you to simply 
consider this program, which you have funded before, and I 
appreciate any consideration that you might give to this $3 
million request or any portion thereof.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Wolf. Thank you, Mike. We will try to do the best we 
can. But we appreciate your testimony.
    Mr. Serrano.
    Mr. Serrano. Just to state that Mike has been very strong 
on this particular program. I know that you do not ask for a 
lot of things, but you do care about this one. I will join the 
chairman in providing any help we can give you.
    Mr. Stupak.
                              ----------                              

                                          Thursday, April 10, 2003.

                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Wolf. Your full statement will appear in the record.
    Mr. Stupak. Thanks.
    Good morning, Mr. Chairman.
    Mr. Chairman, the first part of my testimony deals with the 
Department of Commerce. Those are mostly issues that we have 
always dealt with on Great Lakes and to help protect our Great 
Lakes. Whether it is the International Joint Commission, which 
is a joint commission between U.S. and Canada and their request 
for their budget to the Sea Grant Program to the Great Lakes 
Fisheries, which is a $4 billion program in Michigan.
    This committee has been supportive, and this subcommittee. 
And I want to say thank you for that. So I am just going to 
breeze over that and hope you will continue the funding as you 
have for these vital programs in the Great Lakes.
    I would like to spend a few moments talking about 
Department of Justice and some of the needs we do have in 
Northern Michigan. As you know, my district is one of the 
biggest in the nation. It is one of the most rural in the 
nation. And any help you can give on some of our modest 
requests certainly goes a long way in rural areas.
    Like the first one is Algier County Public Safety 
geographic information systems communication upgrade,$70,000. 
Compared to the $30 million that Mr. Rothman was asking for, this might 
seem small, but it goes a long ways to help out small counties like 
this. The GIS, or geographic information system is really the 
foundation for all mapping and even our global positioning system, GPS.
    So this information can be used to locate with accuracy 
where things are, whether it is a fire hydrant in a rural 
district, where are they, to natural disasters and emergency 
situations, whether manmade or naturally occurring. That is why 
the GIS is critically important to law enforcement.
    Next, is probably our number one priority or request. The 
Charlevoix, Sheboygan, Emmet CCE central dispatch authority, 
you have helped them in the past. Now, last year we had asked 
for an upgrade.
    But now things have sort of changed, and Coast Guard and 
Border Patrol and Customs. This batch is probably the most 
progressive one in my district. And they put millions of 
dollars into it.
    And they are in the tip of the Lower Peninsula there, right 
by the Straits of Mackinac on the eastern end. But since--with 
their system they have, they have been in contact with the 
Coast Guard, with the Border Patrol and Customs. And we have a 
crossing right there in Chippewa County. Canada, we have 
probably about 100-something miles of water there by Canada--
the St. Mary's River.
    And this CCE is like the premier center. And they have been 
approached by others to be able to upgrade their system so they 
can do fingerprinting for INS, for Customs, right out of 
their--out of Sault Ste. Marie.
    And, so that is why the increase went from a million, 
which--to $15 million.
    Mr. Wolf. Will the gentleman yield this question?
    Mr. Stupak. Yes, sir.
    Mr. Wolf. Ah, I think you might want to be talking with the 
Homeland Security Appropriations Subcommittee----
    Mr. Stupak. We have.
    Mr. Wolf [continuing]. On that. I think that is really 
where that would be funded, since that has sort of moved out of 
this committee on to Mr. Rogers. Excuse me.
    Mr. Stupak. Sure. We have, Mr. Chairman, and hopefully, 
they will help us, but I am trying to cover all my bases here 
on this one, because it is critically important.
    But they have brought together all of their middle units in 
those three counties. And that is, actually, the size of, like, 
Delaware, and some of the other states. So, it is a huge, 
massive area. And they take in about 13 law enforcement areas, 
28 fire departments, ambulances, state police--they are all 
tied in. It is one of the few that are worked in very nicely.
    So, I will keep my eye on the other one, and if it does not 
look good, I will may be coming back. Or I at least mentioned 
to you on the floor.
    Chippewa County, which I just mentioned--they are looking 
to upgrade their system. Again, they got about 451 miles of 
shoreline, and it is the international border with Canada. They 
have not upgraded their system since 1974. It does not even 
work very well. So, that is the upgrade we are looking for 
there.
    Lake Superior State University, like Mr. McNulty, is a law 
enforcement training center--criminal justice and fire science 
program. They are asking for some help to upgrade their 
system--$383,000.
    The Lac Vieux Desert Reserve Tribal Police Detention 
Facility, we are asking $545,000. This was actually a Native 
American tribe on the extreme western end of the Upper 
Peninsula. And they were--they have actually went ahead and 
built this detention center, and it helps out, again, Michigan 
State Police, local sheriff's department, local--but they just 
do not have any money to operate it now.
    They built it out of their resources. The operating funds 
are of a difficulty to get from them. For the state to transfer 
money in has not worked as they had hoped it would.
    So, the detention center is still there. They have taken 
other monies to operate it. So they are looking for $545,000 so 
they can operate it, which would then free up people to go on 
the road.
    The reason why this detention center was so critical--out 
where they are located, you have to go 100 miles to detain 
anybody, to put them in jail. And then, if you had a court 
appearance, you have to run up 50 miles, pick them up, return 
another 50 miles. It was just eating up their costs.
    They built it because they are a small tribe, really cannot 
keep it up. The state of Michigan supports it, everyone else 
supports it. So, if you could do something on that one, we 
would appreciate it.
    Thin Blue Line of Michigan. This committee has been very 
good the last two years we have been in asking for help. You 
have provided that help to them, so I want to say thank you and 
hope you will continue their assistance.
    As an old Thin Blue Line, as the number of volunteers where 
police officer or firefighter is killed in Michigan--an aid 
builder will volunteer services to bring attorneys and others 
to help them go through the quagmire of paperwork to make sure 
they will receive all their benefits.
    And this is a volunteer program. All of that money that is 
left just goes to operating costs. They travel the state of 
Michigan on their own time, their own vehicles--that is what we 
use the money for in you have supported in the past, and we 
appreciate it.
    Last but not least, the COPS hiring program. I will put my 
strong emphasis on law enforcement, since I came out of that 
area. I thank you for last year for restoring funding for the 
COPS program. I hope you continue funding the program.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Wolf. Thank you, Bart.
    Mr. Serrano.
    Mr. Serrano. Well, just to commend you for the fact that 
you have not only asked for particular things for your 
district, but you do have great concern, as some of the folks 
behind you also will, for issues that are nationwide and 
global, and I commend you for that.
    Mr. Stupak. Thank you.
    Mr. Wolf. Thank you.
    Mr. Farr, and perhaps we can get Mr. Allen at the same 
time. We have a full schedule up here. Your full statement will 
appear on the record.
                              ----------                              

                                          Thursday, April 10, 2003.

                                WITNESS

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Farr. Thank you very much, Mr. Chairman.
    I am delighted to be here, and I always love coming here, 
and looking at that map, because we are here to talk about the 
oceans, and you can see how much of the blue world is out there 
on our planet. And this is the committee--just thinking about 
your jurisdiction, of how wide it is.
    But to bring it to the oceans, I was trying to think of how 
it related the oceans to you, Mr. Chairman. The only thing I 
could think, was:
    ``O Shenandoah, away you rolling river.''
    Well, that rolling river goes into the Potomac and into the 
Atlantic, and what we are----
    Mr. Wolf. I would love to have it. The Atlantic.
    Can you do the second verse?
    Mr. Farr. No. [Laughter.]
    In fact, I was thinking of what I could do for Mr. Serrano. 
And I could not come up with any--you know, I would think of a 
Sinatra song that had to do with the oceans. The only thing I 
could come up with is his sidekick Dino Martin, who--
    ``Somewhere beyond the sea, somewhere waiting for me.''
    So, both of you----
    Mr. Serrano. So you have never heard Sinatra's ``Lowly two 
rivers stay away from my door?''
    Mr. Farr. I am waiting to hear you sing it. [Laughter.]
    The point is that Mr. Allen and I are both here because we 
live in coastal areas. And the coastal areas are this 
incredible meeting of land and water--the key big masses on the 
planet, and it just called the most fragile ecosystem and the 
least known about.
    We have developed, and to the credit of this committee, a 
program called the National Marine Sanctuary within NOAA. And I 
would like the--of people in that division to start creating 
national parks. That these are areas that are--there are only 
13 of them in the United States.
    And, what they are becoming--I mean, they are all in the 
water, so it is not, you do not walk through them. It is not 
accessible in the sense of a land mass, but it is beginning to, 
because of the focus, to create this interpretation of--what is 
it?
    What is all this? Why is this all important? Why should we 
take care of things like tide pools, and not just go in there 
and take things out of them.
    As we have learned that if we took everything out of the 
forests, trees and so on, you would not have a survivable 
environment.
    And we are starting to learn that about the ocean, and so I 
am working here to be strong supporters of the National Marine 
Sanctuary Program. It is not a very expensive program, the 
administration has supported it.
    I am suggesting that we might even put a little more money 
in there just because of the, cover of the operations and 
maintenance of these programs, which we did that, we focused 
that on the national parks a few years ago.
    Mr. Regula was really keen on making sure that the national 
parks sort of invested in their infrastructure, and it became, 
as you remember, a battle between whether you got to create 
more national parks or take care of the ones we have.
    We ought to take care of the marine sanctuaries we have, 
and just give them a little more money to do what they are 
doing well.
    Within NOAA there is also a program that is new, it is 
called the Marine Protected Areas, it is very controversial, 
commercial fishermen are concerned about these.
    Mr. Allen and I both support strong commercial fishing 
industries. I am very supportive of not--because they are so 
new that, and everybody's just, well, what if? What if they 
stop us from fishing?
    We have not even gotten to that point yet. And I am 
suggesting these programs need to be supported, because right 
now they are collecting data to try to figure out--and I would 
say the marine protected areas are much like theequivalent of 
wilderness areas within our national forests, where we have decided 
that there ought to be certain areas that are not logged and not mined 
and not--that are left in their natural state.
    We are collecting the data on where those ought to be in 
the ocean, we do not know yet. And before we decide that some 
harm may come to somebody, we ought not to kill the programs.
    So I would like to support that very strongly.
    And lastly, I think that we also have to look at--and this 
is something both of us spent a lot of our time on--is, how do 
we better--Mr. Gilchrest as well--but how do you better protect 
your marine fisheries?
    I mean, it is an integral of our nation's history and our 
economy.
    But, we are using the technology that is--it is so evident 
right now, even in the Iraqi war. Part of that, going out into 
the ocean, and the fish do not have a chance anymore. We caught 
4.3 million tons of fish in 2002 alone. Those fish are $3.2 
billion to our economy.
    But, you know, we are out there just catching wild stuff. 
This is equivalent to America, when you had to go out and hunt 
for your food at night. When we took it from the wild. Well, we 
do not need that anymore. And we need to know how to not catch 
so much from the ocean without protecting that environment 
better.
    So we need to do a better assessment on our fish stocks. We 
have already seen some that have collapsed. And I am sure 
that--is going to talk a little bit about that.
    But those are the areas that I am asking about. And nothing 
specifically for my district.
    I came with my attention on--I would like to throw this in, 
and I do not know if this could be in report language or 
something--that we are, the Congress is able to access Sea 
Grant Fellows. They choose with their fellowship program, 
whether they want to go work for agencies and other areas.
    And those that come to Congress, I think it is about 8 a 
year, they choose what offices they want to work in. I have had 
some in my office.
    But it proved to me that they are still--they are only 
authorized to be here for a year. We ought to expand that Sea 
Grant Fellowship to two years, to one session of Congress. 
Because they get started on working on programs, and they never 
see them completed. And it is kind of a disruption.
    So, that is just my two cents' worth. And I appreciate your 
time and your interest. And, again, any effort--all the land 
masses in America contribute to the ocean, because all the 
water systems run into it.
    And most of those water systems are also dependent on a 
clean ocean in order to get fish stock back in and provide for 
recreational fishing and so on. And I really appreciate your 
attention to the universality of dealing with this of this 
program, and I appreciate your continued support.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Wolf. Thank you, Sam.
    Maybe you can check with the authorizers to see, maybe we 
can do something on that and extend it for two years in the 
bill. If we had--sometimes the authorizers get upset if we go 
in a certain area, but I think that one makes sense.
    You are saying, bring one in the cycle at the beginning of 
January of the new session, and they would stay through the 
entire----
    Mr. Farr. It would stay for two years. I do not know if 
they need to stay for two years in the agency anyway or not, 
but if they choose the Congressional model, it is not going to 
cost any more.
    Mr. Wolf. No, no, it is not. Well, if you check with the 
authorizers, we will look at it.
    Mr. Farr. Okay. Thank you.
                              ----------                              

                                          Thursday, April 10, 2003.

                                WITNESS

HON. TOM ALLEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF MAINE
    Mr. Allen. Thank you, Mr. Chairman, and thank you, my 
friend Jose.
    We--I do not have any songs to sing, but I----
    Mr. Serrano. But, you know, it is funny, how quick those 
things. ``How Deep Is the Ocean''? [Laughter.]
    And there is always the summer wind that came in blowing in 
from across the sea, right?
    Mr. Allen. Let no one say that committee members do not 
work while----
    [Laughter.]
    Mr. Allen. I just want to thank you for all your past 
support in this area. I understand Mr. Greenwood and Mr. Weldon 
are both tied up, but they are submitting their testimony.
    The four of us--the Ocean Caucus, and really, I think, in 
many ways, Curt was the driving force behind the creation of 
the Oceans Caucus--are here to call attention to a resource 
that is both not very well known and at great risk. I mean, it 
is often said that we know more about the far side of the moon 
than we know about our oceans.
    There is a tremendous need for good science, in part, 
because we need to have dependable correct data to make wise 
management decisions. And it is particularly acute in coastal 
communities like mine in New England, where our entire fishing 
industry is very much dependent on the qualityof the science. 
We have to know what is going on in the ocean, or this resource will 
suffer enormous damage, and no longer be sustainable.
    On behalf of the Oceans Caucus, I want to talk about two 
things: One, the NOAA ocean observing programs; and, two, the 
National Sea Grant college program. I also concur with Sam's 
suggestion regarding the Knauss Marine Policy Fellows.
    First, ocean observing systems are ways that scientists can 
generate data about the oceans and the atmosphere. They provide 
a wide variety of capabilities in support of our core NOAA 
missions, including improved data for real time dissemination 
and forecast modeling, improved environmental and fisheries 
management, climate change research, ocean science and the 
development of new sensor technologies.
    Just to give you an example. Prior to the establishment of 
the ocean observing system in the Gulf of Maine, fishermen used 
to have to guess what the weather was like 14, 15 miles 
offshore. Now they do not, because they can get real time data 
from a buoy located that far off shore. This cuts down on fuel 
consumption and improves safety, since the fishermen can now 
avoid going out to a place where it is too dangerous for them 
to go. It is an extraordinary development.
    The National Ocean Research Leadership Council, which is a 
partnership of the Navy, NOAA, NASA and the National Science 
Foundation, has called for the implementation of a national 
integrated sustained ocean observing system by 2010. There are 
a lot of different agencies involved, public and private 
partnerships. And we need to help support their efforts.
    The Oceans Caucus is asking support for NOAA's budget 
request of $6.3 million to build and sustain a global ocean 
observance system within the NOAA Office of Oceanic and 
Atmospheric Research. And for the $2 million dollars that the 
National Weather Service coastal global ocean observance system 
has requested.
    These systems would provide data that would do everything 
from affect coastal erosion and would help the fishing, 
tourism, oil and gas industries. They would provide data on 
marine resources and protected species. They would document 
changes in ocean heat and carbon content, measure sea level 
change and really help us understand the climate.
    Separate from that NOAA request, I am also asking for $4 
million in support of the Gulf of Maine Ocean Observing System, 
or GoMOOS. This project is a collaborative effort of the 
University of Maine, the University of New Hampshire, and 
governmental and non-governmental agencies and groups. GoMOOS 
is the system that is operating up in the Gulf of Maine today.
    But it is very much short of funds. The funds in the 2003 
budget were not adequate to keep it going. We are very worried 
that without adequate funding in 2004, we may have to start 
pulling buoys out of the water. GoMOOS is considered the model 
regional system for the country. This is the system that is 
farthest advanced. It is a matter of enormous concern that we 
be able to get this money.
    There is, in addition to the $3 million for--basically for 
operating funds for GoMOOS, another $1 million that would help 
the National Ocean Service coordinate regional systems like 
GoMOOS into a national framework. This funding would also help 
develop systems in other regions that are not currently 
monitored.
    A couple of comments about the National Sea Grant College 
Program. It supports high quality competitive research and 
outreach that is directly responsive to the concerns of coastal 
constituents. For nearly four decades, this program has 
provided an extraordinary return for a fairly small federal 
investment.
    The appropriations are matched by state and private funds. 
There are 31 Sea Grant programs located in coastal and Great 
Lakes states and they serve as the core of a national network 
of over 300 different participating institutions.
    Sea Grant led the development and implementation of the 
lobster zone management process in Maine. Mr. Chairman, 
although this may not be a direct concern to your constituents, 
however the Maine lobster industry is important to our nation 
as a whole. It is now a model for how fisheries can be 
successfully managed by the participants themselves.
    Our lobstermen have basically divided the coast into zones. 
They have set their own trap limits. They have agreed how to 
manage the resource within those areas. And as a result of the 
involvement of 7,000 fishermen, the lobster resource is 
thriving. I mean, lobsters are doing very, very well.
    Sea Grant is currently authorized to work in four priority 
areas: fisheries extension, aquatic nuisance species, oyster 
disease research and harmful algal blooms. Keeping the funding 
going is critical to all of them.
    So what we are asking is $68.14 million for Sea Grant 
funding in 2004, which would be an $8 million increase over 
2003 appropriations. We are asking for $5 million to restore 
the buying power for the Sea Grant program that has been lost 
due to inflation and for $3 million to support the Sea Grant 
fisheries extension program. This would allow Sea Grant to 
place additional fisheries agents on the docks to assist both 
the commercial and recreational fishing sectors.
    And with that, Mr. Chairman, I just want to thank you again 
for your interest in this particular area and to reinforce how 
important our oceans are on a bipartisan basis.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Wolf. Thank you, Tom. I appreciate your testimony.
    Mr. Serrano.
    Mr. Serrano. Just one second, could you briefly explain to 
me the thing about the fishing and knowing the weather?
    Mr. Allen. Oh, yes. The way GoMOOS operates, there are 
buoys located off the coast in various places in the Gulf of 
Maine. The buoys measure air temperature, windspeed, 
visibility, salinity, and a whole lot of things like that. They 
measure the seas, you know, how high the seas are running and 
currents and things like that.
    There are sensors on the buoys that transmit data real time 
to a Web site. The fishermen turn on their computers. They log 
on to the GoMOOS Web site. They get the data from a particular 
buoy and they can decide whether or not to go out.
    Mr. Serrano. These are water satellites, right? I mean 
weather satellites.
    Mr. Allen. Right, that is what it is. Ocean observance 
systems will do for the oceans what satellites have done for 
predicting weather.
    Mr. Serrano. Thank you.
    Mr. Allen. Thank you very much.
    Mr. Wolf. Mr. Weldon's not coming. Mr. Emanuel----
                              ----------                              

                                          Thursday, April 10, 2003.

                                WITNESS

HON. RAHM EMANUEL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Emanuel. Coming right here, timing is everything.
    Mr. Wolf. Your full statement will appear in the record.
    Mr. Emanuel. Thank you.
    Let me apologize if I held you up. I am sorry.
    Mr. Wolf. No, no, you were just on time.
    Mr. Emanuel. Thank you for the opportunity to testify 
before the subcommittee on the fiscal year 2004 appropriations 
request on critical things for the area of Chicago. What I am 
proposing are three to four areas, specifically in the drug 
interdiction and repeat offenders.
    Gateway Foundation is a foundation in Chicago that has done 
model programs throughout the country, trying to reduce repeat 
offenders and substance abusers. And it is a program I have 
worked with extensively, both as a private citizen back in 
Chicago, also as an individual when I was in the White House.
    Upwards of 80 percent of those entering the Cook County 
Jail test positive for illegal substance abuse and 75 to 80 
percent of those individuals are repeat offenders. I am seeking 
a $3 million appropriation grant to help the Chicago Gateway 
Foundation implement the novel comprehensive approach which is 
coerced abstinence.
    It ties treatment to mandatory constant drug testing. It is 
called coerced abstinence. It has been a policy that has been 
used around the country.
    There have been studies done both in Texas and in Illinois, 
where those who participated in the program, you dropped the 
recidivism rate down to as low as 7 percent. Those who do not 
participate and leave jail with their substance abuse intact 
and their habit intact end up having being close to about 75 
percent of repeat offenders.
    And basically the attempt here is to break or slam shut the 
revolving door between constant substance abusers coming in and 
out of the system with their drug habit intact. And it deals 
specifically with breaking that.
    This project will specifically focus on those who are on 
probation who are the--result in about a third of the crimes in 
both theft, armed robbery and burglary area.care.
    The cost for the core steps in this policy is 30 bucks per 
inmate, $10 for the probationers per day, as opposed to $21,000 
for the incarceration of an adult and $55,000 for a juvenile 
annually.
    The second program is one--a project, a pilot project 
started by the Cook County Sheriff's Department and it is a 
program for female drug offenders. And it deals, again, with 
the area of coerced abstinence. This is a project called for $4 
million.
    But one of the things that is unique about itis that it 
specifically targets female inmates who are repeat offenders.
    But allows them to go through drug treatment, the coerced 
abstinence policy, but keep their families together and them 
with their children.care.
    And as you remember, in the state of the union, the 
president talked about trying to make sure that female 
offenders have an ability to have some relationship still with 
their children. This is a model project that Cook County 
Sheriff's Office has developed. The request here is for $4 
million to start off the program.care.
    Third is the Childserv family child care homes program. It 
is providing families a helping hand to help them support 
themselves, improving their quality of life and keeping them 
from draining state resources. The Childserv family child care 
homes program--builds entrepreneurial opportunities for low 
income individuals while providing affordable, accessible child 
care, a much needed resource among lower income families.care.
    It is a child care service in home and allows women--
individuals of modest income to set up a child care facility 
inside a house and a business inside their home. It both serves 
children well, as well as obviously starting off new and small 
businesses.care.
    And third, the mayor of the city of Chicago has started an 
initiative to break substance abuse among, specifically the gay 
and lesbian community--is a program for the gay and lesbian 
community to deal with drugs and substance abuse. That would be 
an initiative for $400,000.care.
    I think I made a mistake by not telling you that the 
earlier program, Childserv--it targets parents transitioning 
off welfare to work but who are no longer eligible for child 
care subsidies, but are not earning a significant nor 
sufficient amount of income to afford the full cost of child 
care.care.
    This initiative and startup would be $500,000, support 20 
child care facilities in the district, and provide 60 children 
of working parents child care.
    I know you have a lot of people, so I was trying to rush 
through it.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Wolf. No, that is fine. And your full statement will 
appear in the record. We appreciate your appearing before this 
committee. And thank you.
    Mr. Emanuel. Thank you very much.
    Mr. Wolf. And Mr. Serrano.
    Mr. Serrano. What areas do you represent, specifically?
    Mr. Emanuel. It is the north side of Chicago. It goes from 
Wrigley Field and Lincoln Park and--Memorial Hospital on the 
east side, literally on the border to the lake, up through 
Wrigley Field, where Wrigley Park is and then Albany Park, 
where my grandfather on my mother's side came in 1917 from 
Russia.
    It is one of the most dense areas and low income areas of 
the city, to the west side, Hiawatha Park, Forest Park. It is a 
working class ethnic Catholic district, 65 percent of the 
district is ethnic Catholic. So it has a diverse--they have the 
largest population of police and firefighters and city 
employees.
    Mr. Serrano. Thank you for your testimony.
    Mr. Wolf. Mr. Chairman.
    Mr. Wolf. The staff has advised me that one proposal may 
fall within the jurisdiction of the Labor/HHS subcommittee.
    Mr. Emanuel. The child care proposal?
    Mr. Wolf. Yes.
    Mr. Emanuel. Thank you very much.
    Mr. Wolf. Thank you very much.
    Mr. Emanuel. I think that was one that they were thinking 
about originally as a possible Byrne grant. I do not know what 
happened to the Byrne grant.
    Mr. Wolf. Yes, it is under a little pressure. And----
    Mr. Emanuel. Rumor has it. [Laughter.]
    Mr. Wolf. And so I think you might want to kind of look 
at----
    Mr. Emanuel. We will let you know if we do do that so that 
we are not double-dipping.
    Mr. Wolf. Okay.
    Mr. Visclosky.
    Mr. Visclosky, your full statement will appear in the 
record.
                              ----------                              

                                          Thursday, April 10, 2003.

                                WITNESS

HON. PETER VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Visclosky. Mr. Chairman, Mr. Serrano, thank you very 
much for allowing me to testify before you today. I am here 
really just for two reasons: one, to thank both of you as well 
as the members of the subcommittee and the staff. You have 
continued to be very thoughtful and very generous on behalf of 
the people I represent in Northwest Indiana.
    And, particularly, I would like too thank you for your 
continued support of the Bulletproof Vest Partnership Program 
that Congressman LoBiondo and myself had worked so hard to 
authorize. You have in fact saved the lives of police officers 
all over the nation and I do want to thank you for that.
    The requests that I have are for that program as well as a 
number of other programs important in Northwest Indiana. We 
will look forward to working with you and your staffs as we 
proceed to mark up in conference.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Wolf. Thank you very much.
    Mr. Serrano. Thank you so much for your statement, and we 
will both be seeing you about some items we have in mind for 
your----
    Mr. Visclosky. All right. [Laughter.]
    Mr. Wolf. Thank you.
    Mr. Serrano. Thank you.
    Mr. Wolf. Mr. Sanders, your full statement will appear in 
the record.
                              ----------                              

                                          Thursday, April 10, 2003.

                                WITNESS

HON. BERNARD SANDERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VERMONT
    Mr. Sanders. Okay.
    Mr. Wolf. And you can to summarize, if you can.
    Mr. Sanders. Sure. First of all, Mr. Chairman, let me, and 
Mr. Serrano--all right, let me very sincerely thank you for the 
$250,000 grant that you provided for the At-Risk Youth Crime 
Prevention Center in Newport, Derby Vermont region. That is the 
very, very tip of Vermont, the few miles away from the Canadian 
border.
    It is, in fact, one of the lowest-income areas in the state 
of Vermont. They have been raising money in nickels and dimes 
at the high school, well over a thousand people have 
contributed, and that sum of money that you provided is going 
to take them close to the top. They are going to build that 
project; it is going to be a real asset for the community.
    I have introduced--I am going to--coming back to you now, 
my major request is for funding for another facility similar to 
that, this time in the southern part of the state, in a town 
called Springfield, Vermont, which used to be a major 
industrial center in the state of Vermont--machine tool and die 
stuff.
    It has been devastated by the loss of good-paying 
manufacturing jobs, the community, again, is trying to come 
together and fund a community center, focusing on at-risk kids, 
senior center--senior citizens, preschool, and so forth and so 
on.
    Now, I believe I have national legislation in which would 
provide federal funding for community centers like this all 
over America. And I will tell you why I think these centers are 
so important.
    We are all aware of the crisis in terms of obesity and 
other health problems which can, in fact, be dealt with before 
people become sick. No question about it. We do not get enough 
exercise. Our people are too heavy. We spend over a trillion 
dollars a year on health care, and yet we do a paltry sum of 
that in terms of disease prevention.
    I predict that the day will come when I will not have to 
come to you for this money; it will be funded from the health 
care dollars. Any sensible person knows that if we keep people 
healthy, you save money, not only improve the quality of life.
    So, I think these community centers do a great deal, 
especially in a climate like mine in Vermont, where, in the 
wintertime, it is bitter cold. And then people sit--they 
vegetate. They stay inside, they watch TV, they eat crap, they 
get too heavy, they get depressed. And these community centers 
give people an opportunity to mix with other people, to get out 
and exercise.
    All over America--in your district, in yours, Jose. You 
know, people who have the money go to these physical fitness 
places. It is no great secret, right? But they are expensive. 
And if you are a working-class family, you are a low-income 
family, you are not going to go to those facilities.
    These facilities are going to be open to everybody at 
nominal or no cost. And I think that they are just--every 
dollar we spend on them, we as a nation are going to save money 
in terms of disease prevention, in terms of bringing kids out.
    You know, we talk, in my--I will only talk about my 
district. Go to small towns of Vermont, you talk to the kids, 
and they say, ``There is nothing to do. We hang out on the 
corners.''
    True all over America. But I do not want you to think it is 
not true in a rural state like Vermont. It is absolutely true. 
And when I was mayor of Burlington, we built youth centers 
which have done, I think, a tremendous job. You know, kids, 
they come in, they listen to their crappy music and all that 
stuff, but at least they are doing non-alcohol, non-drug-
related activity, right?
    That is where we have to move in this country, and that is 
what this is about. So I want to thank you very much for the 
support that you have given us in the last process and I am 
going to ask for your support again.
    In a similar sense, there is a much smaller grant that we 
would like, for $25,000, for at-risk youth crime prevention in 
the town of West Rutland, also a working-class town. This would 
help them improve upon a facility that they have.
    We also have two requests in for police departments. One is 
for the Bristol, Vermont, Police Department to purchase HAZMAT 
equipment through the Department of Justice.
    And the last request is, similarly, is for the Middlebury, 
Vermont, Police Department to upgrade personal protective 
equipment in to enhance shelter and communication facilities.
    So, those are the four requests that we would like.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Wolf. Well, thank you very much. We will try to see 
what we can do.
    You may wish to make a request through Mr. Rogers' 
Subcommittee on Homeland Security.
    Mr. Sanders. Okay. We will do that.
    Mr. Wolf. With that, Mr. Serrano.
    Mr. Serrano. No. That is just a whole new area that is 
opening up, the Homeland Security Subcommittee. I really 
appreciate your testimony and the fact that you appeared 
yourself to young people and keeping our communities safe.
    Mr. Sanders. And let me offer this: please, I would love to 
take both of you up. Come on up. You know, what goes on in 
northern Vermont is different than what is in your district, 
and it is different in your district, Frank. But I think you 
can see people coming together around these community centers.
    Mr. Wolf. You also, too, might have your staff talk to our 
staff about the request to see if there is a way things could 
be shaped.
    Mr. Sanders. Okay. We will do that promptly. Jose, thank 
you.
    Mr. Serrano. There is nobody here. [Laughter.]
    Mr. Terry. Well, then--In conclusion----
    Mr. Wolf. Your full schedule will appear uninterrupted and 
if we could summarize, and we welcome you here.
                              ----------                              

                                          Thursday, April 10, 2003.

                                WITNESS

HON. LEE TERRY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEBRASKA
    Mr. Terry. Well, thank you. I do appreciate the time. And I 
am here, once again, on behalf of Girls and Boys Town USA.
    First of all, let me start off by thanking you for the 
support that you have given them in the past. It is extremely 
important to Girls and Boys Town, but, more importantly, to the 
girls and boys that they serve.
    Now, Boys Town has sold off property in Omaha, Nebraska, 
and raised money committed to their project of putting 
satellite projects throughout the country, in the toughest 
neighborhoods, in our cities, to try to help these children.
    But the fact is, they cannot raise enough money to do it as 
quickly as it needs to be done. And that is why I come before 
this subcommittee and request help for Girls and Boys Town.
    They have a great model and a great record of success. They 
truly take the children that the courts have given up on and 
have a remarkable success rate. Not every child is reformed, 
but almost 80 percent of the kids that they bring in leave on 
track to receive their high school education, on track to 
become a good part of our society.
    And Father Val Peter was in town yesterday, and he 
mentioned that they have 73 of their graduates in the Gulf 
right now fighting for America. And he pulled out a letter and 
read it, from one of his past students, that had a $10 bill in 
it as his weekly donation to the church. And that is just the 
type of quality person that they are able to help.
    So, I come before you. They are in progress of a new 
facility in Phoenix, in New Jersey. They are doing two new 
projects in Portland, and Tallahassee, Florida.
    So, every year that you help them is another new city they 
can go in the year after and help those kids.
    I just greatly appreciate the help that you have given 
Girls and Boys Town to help those girls and boys in our 
toughest cities.
    Any questions?
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Wolf. Well, we will try to help. Again, it is a good 
program. I do appreciate your coming before the committee and I 
thank you for that.
    Mr. Serrano. We do appreciate your commitment to this 
program. And, as the Chairman says, it is one of those stellar 
programs that we will try to keep helping.
    Mr. Terry. Thank you.
    Mr. Wolf. Thank you, Lee. The meeting is adjourned. Thank 
    you.
    [Testimony for the record follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
        

</pre></body></html>
